<html>
<title> - PROGRESS TOWARD A NATIONWIDE PUBLIC SAFETY BROADBAND NETWORK</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


      PROGRESS TOWARD A NATIONWIDE PUBLIC SAFETY BROADBAND NETWORK

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2015

                               __________

                           Serial No. 114-57
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                               ____________
                               
                               
                           U.S. GOVERNMENT PUBLISHING OFFICE
97-652 PDF                      WASHINGTON : 2016                           
                    
________________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="492e3926092a3c3a3d212c2539672a262467">[email&#160;protected]</a>  
                    
                    
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California7
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     4
    Prepared statement...........................................     5
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     6
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    52
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    53

                               Witnesses

T.J. Kennedy, Acting Executive Director, First Responder Network 
  Authority......................................................     7
    Prepared statement...........................................    10
Stu Davis, State Chief Information Officer and Assistant 
  Director, Ohio Department of Administrative Services...........    19
    Prepared statement...........................................    21

                           Submitted Material

Letter of June 12, 2015, from David Hoover, Vice President of 
  Legislative Affairs, NTCA-The Rural Broadband Association, to 
  Mr. Walden and Ms. Eshoo, submitted by Mr. Walden..............    54

 
      PROGRESS TOWARD A NATIONWIDE PUBLIC SAFETY BROADBAND NETWORK

                              ----------                              


                         TUESDAY, JUNE 16, 2015

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:18 p.m., in 
room 2322 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Shimkus, 
Blackburn, Lance, Guthrie, Olson, Kinzinger, Bilirakis, 
Johnson, Long, Ellmers, Collins, Cramer, Eshoo, Doyle, Welch, 
Clarke, Loebsack, DeGette, Matsui, McNerney, Lujan, and Pallone 
(ex officio).
    Staff present: Ray Baum, Senior Policy Advisor, 
Communications and Technology; Andy Duberstein, Deputy Press 
Secretary; Gene Fullano, Detailee, Communications and 
Technology; Kelsey Guyselman, Counsel, Communications and 
Technology; David Redl, Chief Counsel, Communications and 
Technology; Charlotte Savercool, Legislative Clerk; Jeff 
Carroll, Democratic Staff Director; David Goldman, Democratic 
Chief Counsel, Communications and Technology; Ashley Jones, 
Democratic Director of Communications, Member Services, and 
Outreach; Lori Maarbjerg, Democratic FCC Detailee; Margaret 
McCarthy, Democratic Senior Professional Staff Member; Timothy 
Robinson, Democratic Chief Counsel; and Ryan Skukowski, 
Democratic Policy Analyst.
    Mr. Walden. I will call to order the Subcommittee on 
Communications and Technology, and I apologize for the delay in 
getting started. We had some votes, and a couple of member 
things I had to deal with, but we are here now.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    When we last convened to discuss FirstNet, my goal was to 
leave that hearing with a higher level of comfort with regard 
to FirstNet's progress and confidence in the way it was 
conducting its business. As we all recognized then, and 
continue to acknowledge today, FirstNet has before it an 
undertaking which rivals the network deployments of our largest 
national carriers. In fact, given its mandate to build an 
interoperable wireless broadband service for all of our 
Nation's first responders, its task will take to all corners of 
the United States.
    Now, early shortcomings in FirstNet's approach to 
consultation with States and other interested parties had 
resulted in considerable uncertainty and concern among 
stakeholders. Confused messaging, a perceived lack of 
transparency, and unanswered questions regarding FirstNet's 
vision for the network, and even FirstNet's vision for itself, 
further complicated things. Questions like, How would FirstNet 
provide service? Would it build a network, or partner with 
commercial carriers? What is FirstNet going to charge, and how 
does the opt-out work? Each contributed to the concerns raised 
at the hearing, and answers were far from forthcoming. Now, on 
top of all the policy concerns, FirstNet was also under 
investigation by the Inspector General of the Department of 
Commerce into alleged conflicts of interest and contracting 
concerns when we gaveled in last time.
    Now, much has happened since then. There has been some 
turnover in management, and--with the release of the IG's 
report in December of last year confirming much of what we 
feared, that FirstNet had been operating without proper 
processes in place, and without compliance with the laws that 
guard against impropriety. It is my hope that the missteps are 
now behind us, and I believe they are. But that is not to say 
that there aren't additional challenges.
    On April 28 the U.S. Government Accountability Office 
released a report on FirstNet's progress in establishing the 
network, concluding that while FirstNet has made progress 
carrying out its responsibilities, weaknesses in FirstNet's 
internal controls remain. For example, it remains unclear how 
FirstNet is internalizing the lessons learned from the Early 
Builder projects. Those are the five jurisdictions that are 
already deployed--or deploying public safety broadband networks 
using FirstNet spectrum. And while the GAO report recommends 
fixes, it is GAO's succinct statement of what lies ahead that 
must inform our oversight. FirstNet faces a multitude of risks, 
significant challenges, and difficult decisions in meeting its 
statutory responsibilities, including how to become a self-
funding entity.
    To give FirstNet credit, it has made progress. We witnessed 
FirstNet's information collections, and consultation, and 
outreach activities accelerate through 2014. The feedback 
gathered has informed discussion on deployment and brought 
productive debate among all stakeholders. Today's hearing 
reflects the subcommittee's commitment to continued and 
thorough oversight of FirstNet. We all share the goal of 
ensuring that our Nation's first responders realize the promise 
of truly interoperable state-of-the-art emergency 
communications networks envisioned by the law. With those early 
missteps behind us today, we look not only at the progress 
FirstNet has made, but also what new challenges lie ahead, our 
goal being to leave with a higher level of comfort in 
FirstNet's progress, and confidence in the way it is conducting 
its business.
    So I look forward to hearing from Mr. Kennedy, who can 
provide an update on FirstNet's progress, put some of the 
pieces together, and share with more specificity developments 
in FirstNet's considerations and visions for the public safety 
broadband network. I also would like to thank Mr. Davis for 
appearing a second time before the subcommittee to share his 
experience as a State Chief Information Officer, and his 
assessment what needs improvement, and where FirstNet is 
headed.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    When we last convened to discuss FirstNet, my goal was to 
leave that hearing with a higher level of comfort with regard 
to FirstNet's progress and confidence in the way it was 
conducting its business. As we all recognized then and continue 
to acknowledge today, FirstNet has before it an undertaking 
which rivals the network deployments of our largest national 
carriers. In fact, given its mandate to build an interoperable 
wireless broadband service for all of our Nation's First 
Responders, its task will take it to all corners of the United 
States.
    Early shortcomings in FirstNet's approach to consultation 
with States and others interested parties had resulted in 
considerable uncertainty and concern among stakeholders. 
Confused messaging, a perceived lack of transparency, and 
unanswered questions regarding FirstNet's vision for the 
network and even FirstNet vision for itself further complicated 
things. Questions like: How would FirstNet provide service; 
would it build a network or partner with commercial carriers; 
what is FirstNet going to charge; and, how does the ``opt out'' 
work each contributed to the concerns raised at the hearing and 
answers were far from forthcoming.
    And, on top of all of the policy concerns, FirstNet was 
also under investigation by the Inspector General of the 
Department of Commerce into alleged conflicts of interest and 
contracting concerns when we gaveled in.
    Much has happened since then. There has been some turnover 
in management, and with the release of the Inspector General's 
report in December of last year confirming much of what we 
feared--that FirstNet had been operating without proper 
processes in place and without compliance with the laws that 
guard against impropriety--it is my hope that the missteps are 
behind us. And I believe they are.
    But that is not to say that there aren't additional 
challenges. On April 28th, the United States Government 
Accountability Office released a report on FirstNet's progress 
in establishing the network--concluding that while FirstNet has 
made progress carrying out its responsibilities, weaknesses in 
FirstNet's internal controls remain. For example, it remains 
unclear how FirstNet is internalizing the lessons learned from 
the early builder projects--the five jurisdictions that are 
already deploying public safety broadband networks using 
FirstNet's spectrum. And while the GAO report recommends fixes, 
it is GAO's succinct statement of what lies ahead that must 
inform our oversight--``FirstNet faces a multitude of risks, 
significant challenges, and difficult decisions in meeting its 
statutory responsibilities, including how to become a 
selffunding entity.''
    To give FirstNet credit, it has made progress. We witnessed 
FirstNet's information collections and consultation and 
outreach activities accelerate throughout 2014. The feedback 
gathered has informed discussions on deployment and brought 
productive debate among stakeholders.
    Today's hearing reflects the subcommittee's commitment to 
continued and thorough oversight of FirstNet. We all share the 
goal of ensuring that our Nation's First Responders realize the 
promise of truly interoperable, state-of-the-art emergency 
communications network envisioned by the law. With those early 
missteps behind us, today we look not only at the progress 
FirstNet has made but also what new challenges lie ahead. Our 
goal being to leave with a higher level of comfort in 
FirstNet's progress and confidence in the way it is conducting 
its business.
    I look forward to hearing from Mr. Kennedy who can provide 
an update on FirstNet's progress; put some of the pieces 
together, and share with more specificity developments in 
FirstNet's considerations and vision for the of the public 
safety broadband network. I also would like to thank Mr. Davis 
for appearing a second time before the subcommittee to share 
his experience as a State Chief Information Officer and his 
assessment what needs improvement and where FirstNet is headed.

    Mr. Walden. With that, I turn to the vice chair of the 
subcommittee, Mr. Latta, for any opening comments that he may 
have.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
again, thanks for holding today's hearing, and thanks to our 
witnesses for being back with us today, I really appreciate it, 
especially Mr. Davis, coming from Ohio. Public safety and 
emergency communications are critical to protecting the lives 
of Americans. That is why we must ensure that the 
implementation of FirstNet is very successful. A reliable 
nationwide network is essential for first responders to 
facilitate their communication needs and support their everyday 
missions.
    While I understand developing a nationwide interoperable 
public safety network is a significant undertaking, it is 
imperative that it is properly established to meet the needs of 
all Americans, especially our first responders. Furthermore, I 
am eager to see the future developments, as consultations are 
underway to better incorporate the States' input into planning 
and implementation of the broadband network.
    Mr. Chairman, I look forward to today's hearing, and again 
thank our witnesses for appearing.
    Mr. Walden. I thank you for your comments and leadership. 
Turn now to the ranking member, my friend from California, Ms. 
Eshoo, for 5 minutes.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman. Good afternoon, 
everyone, and thank you to the witnesses for being here. It has 
been a year and a half since our subcommittee last held a 
FirstNet oversight hearing, and progress has been made. I think 
that there are--we have a lot of questions. Obviously, since we 
haven't been together for a year and a half for--to do the 
oversight that needs to be done. But--and we look forward to--I 
look forward to asking those questions, and I am sure that my 
colleagues do as well.
    Now, in terms of progress, I think amongst the biggest 
milestones include the release of a strategic road map, ongoing 
collaboration with States, and most recently the draft request 
for proposals intended to provide FirstNet with extensive 
stakeholder input. And that is--in my book, that is one of 
the--that is really key. You have to talk to customers. You are 
not in touch with customers, your company or endeavor is going 
to flop, in my view.
    So, thanks to the success of the recently completed
    AWS-3 auction, FirstNet will soon have the funds it needs 
to deliver on the first-ever nationwide interoperable public 
safety network. And I remind everyone that this was the one 
recommendation of the 9/11 Commission that the Congress had not 
made good on, but we did for the American people. So a lot 
rides on this effort. A lot rides on this effort, and we got 
the money for you, and did the legislation. It became law, and 
we want to make sure that this is not only done, but done very 
well, because it is a very big deal. It is a big deal for our 
country.
    Going forward, I think there are three key areas which 
FirstNet's leadership should give special consideration to. 
First, I think it is critical that wireless carriers of all 
sizes have an opportunity to partner with FirstNet, just be an 
equal opportunity outfit, in my view. In particular, regional 
and/or rural providers will have an important role to play, 
both in building the network, as well as being able to provide 
consumers with enhanced wireless broadband service when the 
network is not needed by emergency personnel.
    Second, device competition is critical to the success of 
FirstNet. $5,000 public safety radios are out, o-u-t, so there 
is--I don't even--I don't want to hear about them anymore. As 
far as I am concerned, they don't exist, and I don't think any 
of the dollars that are being provided should go to anything 
like that. That is yesterday. What is in? Highly innovative 
broadband enabled devices that can transmit live video from a 
robot sent to, for example, to assess a suspicious package, 
view floor plans of a burning building, access medical history 
of a patient in distress, as well as the wide range of other 
mobile applications. In other words, you have to be just as 
21st century as the rest of the--of this ecosystem is in our 
country. These devices have to be truly interoperable, and 
capable of withstanding the physical challenges that first 
responders face very day.
    And finally, I think that FirstNet should ensure its core 
operations align with the standards and the technologies 
related to next generation 911. Congressman Shimkus has been, 
you know, a great, great advocate, a coach here of the e-911 
caucus. We have been working on these issues for more years 
than we want to count, and so there has to be alignment with 
that operation. The call centers around the country are 
upgrading to NG-911, and they are becoming capable of receiving 
photos, and videos, and text messages, so it only makes sense 
that this information can be seamlessly transmitted to first 
responders headed to an emergency situation. So the--your 
operations have to be absolutely aligned.
    So as we work toward advancing the next generation of 
public safety communications, I want to thank you for the work 
that you have already done, for what you are going to do, and 
for being here today to testify and give us a good deep dive on 
where things are, and how you see the future. Thank you, and I 
yield back, Mr. Chairman.
    [The prepared statement of Ms. Eshoo follows:]

                Prepared statement of Hon. Anna G. Eshoo

    In the year and a half since our subcommittee last held a 
FirstNet oversight hearing, significant progress has been made. 
Among the biggest milestones include the release of a strategic 
roadmap, ongoing consultation with States, and most recently, a 
draft request for proposals intended to provide FirstNet with 
extensive stakeholder input.
    Thanks to the success of the recently completed AWS--3 
auction, FirstNet will soon have the funds it needs to deliver 
on the first-ever, nationwide interoperable public safety 
communications network, and with this, Congress making good on 
the last major recommendation of the 9/11 Commission.
    This is a big deal.
    Going forward, there are three key areas which FirstNet's 
leadership should give special consideration:
    First, it's critical that wireless carriers of all sizes 
have an opportunity to partner with FirstNet. In particular, 
regional and/or rural providers will have an important role to 
play, both in building the network as well as being able to 
provide consumers with enhanced wireless broadband service when 
the network is not needed by emergency personnel.
    Second, device competition is critical to the success of 
FirstNet. Five-thousand-dollar public-safety radios are out. 
What's in? Highly innovative, broadband-enabled devices that 
can transmit live video from a robot sent to assess a 
suspicious package, view floor plans of a burning building, 
access medical history of a patient in distress as well as a 
wide range of other mobile applications. These devices must be 
truly interoperable and capable of withstanding the physical 
challenges that first responders face every day.
    Finally, FirstNet should ensure its core operations align 
with the standards and technologies related to Next Generation 
911. As call centers around the country upgrade to NG911 and 
become capable of receiving photos, videos, and text messages, 
it only makes senses that this information can be seamlessly 
transmitted to first responders headed to an emergency 
situation.
    As we work toward advancing the next generation of public 
safety communications, I thank our witnesses for being here 
today, and I look forward to your important testimony.

    Mr. Walden. I thank the gentlelady and would like to insert 
in the record a letter from the Rural Broadband Association, 
without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. Turn now to the vice chair of the full 
committee, the gentlelady from Tennessee, Mrs. Blackburn.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and I want to 
thank you all for being here to give us an update. As the 
Chairman said in his comments, this is something we have 
followed, will continue to follow, and do appropriate oversight 
with you. We are so focused on your funding mechanism, how you 
moved to self-funding after that initial tranche of money is 
exhausted, and then how you are going to see that business 
model developing.
    Also, the issue of interoperability, those of us that have 
worked through the issues of some of our natural disasters want 
to make certain that that is being addressed, and that the 
stakeholders, with all of the first responders across the 
country, are going to understand, participate, and that we are 
going to realize this objective of having something that is 
interoperable.
    The other thing I want to touch on, and I will get to this 
in my questions a bit more, the aspects of a secure network. We 
are realizing more and more the importance of having a secure 
network, and, of course, we realize, closed systems, we are 
going to deal with those one way, enterprise systems another 
way. When you look at something that meets the interoperability 
component that you are going to have, the security of the 
system is just so important to us.
    We are living in an age where we face cyberattacks not just 
on a monthly basis, a weekly basis, but an hourly basis. So 
please talk with us about this issue of security. It is a 
heightened concern for us as we move into the age of the 
Internet of everything, and look at 50 billion devices being 
attached by the time we get to the end of this decade. So that 
secure wireless network that is the goal, we want to be certain 
that indeed it is secure, and hear from you as much as you can 
divulge to us that--how you are achieving that.
    With that, I will yield the balance of my time to anyone 
who is seeking time. No takers? Time goes back----
    Mr. Walden. No takers?
    Mrs. Blackburn [continuing]. To Mr. Chairman. I yield back.
    Mr. Walden. And the gentlelady yields back, and I am told 
the ranking member of the full committee has asked Ms. Matsui 
to take his time, so I now recognize the gentlelady from 
California.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman, for yielding Mr. 
Pallone's time to me. First of all, let me say FirstNet is a 
startup, let us not forget that. Like every startup, it has had 
its growing pains. For so long there were questions on how 
FirstNet would be funded, but now we know that it was fully 
funded, and will be operational, due to this subcommittee's 
diligent work on AWS-3's record setting spectrum auction. Last 
year FirstNet laid out a road map, and I am pleased that they 
are hitting their milestones so far.
    From the beginning I remained focused on the need for a 
strong governance structure at FirstNet to responsibly govern 
any nationwide public safety interoperability network. Despite 
some initial concerns about the role of States taking a back 
seat, I am pleased that the FirstNet board took this issue head 
on and developed a strong coordinated relationship with the 
States. It is my hope that we can work together in a bipartisan 
manner to achieve success for America's first responders. And I 
yield to anyone on my side who would like to take the rest of 
the time. No? I yield back the balance of my time.
    Mr. Walden. Gentlelady yields back the balance of her time. 
We go to our witnesses now, and start with Mr. T.J. Kennedy, 
Acting Executive Director, First Responder Network Authority. 
We want to thank you for your leadership, and appreciate the 
progress that you have been making. And please go ahead with 
your comments.

 STATEMENTS OF T.J. KENNEDY, ACTING EXECUTIVE DIRECTOR, FIRST 
    RESPONDER NETWORK AUTHORITY; AND STU DAVIS, STATE CHIEF 
INFORMATION OFFICER AND ASSISTANT DIRECTOR, OHIO DEPARTMENT OF 
                    ADMINISTRATIVE SERVICES

                   STATEMENT OF T.J. KENNEDY

    Mr. Kennedy. Thank you, Chairman Walden, Ranking Member 
Eshoo, members of the subcommittee. I really appreciate being 
here on behalf of the First Respondent Network Authority. I 
welcome the opportunity to brief you on FirstNet's progress, 
and the development of deploying an interoperable nationwide 
public safety broadband network. It is also a pleasure to 
appear here today with the CIO of the State of Ohio, Stu Davis. 
We just recently conducted the Ohio consultation last week in 
Ohio, and his team has been very active not just in Ohio 
itself, but even within the region, in setting a great example 
for our country in how to make this network possible.
    I would like to welcome several members of the public 
safety community who join us here today. This network is all 
about them. When we put reliable, resilient broadband 
technology in the hands of police officers, firefighters, 
emergency medical services personnel across this country, we 
will enhance public safety like never before. We will create 
new ways that first responders can save lives, and improve 
first responders' own safety. As this committee is aware, we 
are experiencing growing pains in our early days of existence, 
but we have worked very hard to shore up areas of weakness, and 
to take on as much responsibility as we can. And I am very 
confident that today you will find our processes and procedures 
in line with your expectations.
    I am leading a dedicated team of professionals, who are 
working tirelessly to achieve both the goals that you have 
created for us, and the internal goals that we strive to 
achieve every day. Each day we work on recruiting and building 
the most talented team possible in order to make this program 
successful. Under the direction of the Chairwoman of the Board, 
Mrs. Sue Swinson, we have implemented a culture measured by 
results, while always remembering who we are working for. The 
network that we will deploy is public safety's network, and 
this is the key principle that guides our work each day.
    The pace at which we are working is very high, and this 
leads to a demanding, but rewarding, work environment. FirstNet 
resembles a startup, and we have a team that has rolled up its 
sleeves, and is focused on consultation and/or acquisition that 
will result in the successful deployment of a nationwide public 
safety broadband network. Having a wireless startup inside of 
Government is a challenge that we are overcoming, and you are 
able to see the progress that we have made. Since the release 
of our strategic road map in March of 2014, we have been doing 
something unusual. We are actually doing what we told you we 
would do. We released a plan, and we are sticking to it, and we 
are meeting the goals that we set out to achieve.
    Since we last testified before this subcommittee in 
November of '13, we have accomplished the following. We 
released 13 RFIs, which examined numerous aspects of the 
network. We published a statement of objectives with a 
comprehensive network RFI. This brought together all of the 
information that we had received into a single document. We 
conducted three public notices addressing various aspects of 
our enabling statute, and in April we released a special notice 
with draft RFP documents. We have been consulting with States 
and territories, and conducting an enormous amount of outreach 
to our stakeholders.
    While we have taken great strides in the right direction, 
significant work remains, and we at FirstNet are committed to 
completing the mission that Congress has given us. One area 
that I believe we have improved on is engaging with our Public 
Safety Advisory Committee, known as the PSAC. A lot of the 
credit for this improvement must go to Chairwoman Swinson and 
the PSAC Chairman, Chief Harlin McEwan. The PSAC is actively 
engaged in task teams that are working on critical topics, such 
as priority and preemption, public safety grade, and end user 
devices. The 40 members of the PSAC are public safety's voice 
with FirstNet, and by leveraging it, we will ensure that we 
integrate public safety into the fabric of the network at every 
stage of planning and deployment.
    Our consultation and outreach efforts have been impressive, 
but more work remains to be done. We have held consultations 
with 35 States to date, with a further 15 scheduled. In fact, 
Mr. Chairman, your home State of Oregon was one of our early 
consultations, and we have seen an impressive outreach in 
organizational structure in Oregon, and many other States. 
FirstNet is collaborating with States in public safety to 
conduct outreach and consultation, and are leveraging the State 
and local implementation grant program that has helped fund 
these important efforts throughout the country.
    As we work towards the end of the year, and the planned 
release of the comprehensive network RFP, the consultation 
process continues to inform the composition of the RFP, and so 
it is very important that States are involved at every stage in 
development of the network. States have many avenues for 
consultation beyond our in person meetings and regular 
conference calls. States can have significant consultation 
feedback through the responses to our public notices and our 
draft statement of objectives. I have directed the organization 
to focus on these very two topics in 2015, consultation, and 
our acquisition of the network. These are our top priorities to 
meet the requirements of the act.
    FirstNet currently has a number of draft RFP documents open 
for public comment, and we have been very encouraged by the 
feedback that we received up to this point from both industry, 
from public safety, and from States. Mr. Chairman, it is the 
mission, that of deploying a much needed nationwide public 
safety broadband system that our first responders deserve, that 
has me excited to come to work every morning. This is not an 
easy task, but it is extremely rewarding to the hard working 
team members of FirstNet, and we all understand the critical 
importance to our country of getting this right for public 
safety.
    [The prepared statement of Mr. Kennedy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
       
    Mr. Walden. Mr. Kennedy, thank you for your leadership, and 
that of your team's, and the progress that you are making, and 
your forthright commitment to do what you told us you would do. 
That is novel. We were just suggesting bringing you back more 
often.
    Now we go to Mr. Stu Davis--we have got a few other 
agencies we can assign you to--State Chief Information Officer, 
Assistant Director, Ohio Department of Administrative Services. 
Mr. Davis, we are delighted to have you back before the 
subcommittee. Please go ahead.

                     STATEMENT OF STU DAVIS

    Mr. Davis. It is good to be here. Good afternoon, Chairman 
Walden, Ranking Member Eshoo, and members of the subcommittee. 
Thank you for the opportunity to testify on FirstNet and the 
National Public Safety Broadband Network. As State CIO, I also 
chair the Multi-Agency Radio Communication System, or MARCS, 
and the Steering Committee, Ohio's land mobile radio system 
that supports voice and data communications for statewide 
public safety and emergency response. And I also chair Ohio's 
Next Generation 911 steering committee as well.
    I first testified before you in November 2013 and expressed 
concerns that the Ohio General Assembly had about FirstNet. It 
called for this subcommittee to continue these meetings, and we 
commend you for doing so. I also expressed concerns relative to 
some key components that are necessary for success. FirstNet 
has been--has made significant progress in further defining and 
communicating the mitigation of these concerns. Regarding the 
State's relationship with FirstNet, it is important that 
FirstNet views this as a partnership. FirstNet has come a long 
way in this regard, and, over the past year and a half, many 
States have had the opportunity to meet with representatives 
from FirstNet and discuss issues and concerns. FirstNet's 
message has been clear. They are listening, reacting to our 
concerns. Ohio's FirstNet consultation was held last week, and 
by all accounts was a positive interaction.
    From a planning and development perspective, States, 
including Ohio, have received planning grants to support 
stakeholder outreach, governance, and data collection 
activities in support of FirstNet. Ohio has been pursuing a 
regional, or a multi-State approach. The FEMA region, five 
States of Michigan, Minnesota, Indiana, Illinois, Wisconsin, 
and Ohio, have long been partners in the pursuit of obtaining 
the best possible public safety communication networks for the 
region. Region 5 States met often on FirstNet, and we have 
found the same issues emerge for all of us, local control 
issues, leveraging existing systems, next generation 911 
integration, and, of course, business models.
    At our request, FirstNet participated in these meetings, 
and provided additional communication, and a consistency in 
their message regarding interactions with the State. Their 
outreach efforts are appreciated. Region 5 has taken steps to 
identify assets that support emergency responder communication 
to tower to other technical infrastructure. Of course, there 
are necessary legal, financial, and jurisdictional 
considerations when leveraging public infrastructure. Due to 
the complexity of these considerations, recent FirstNet 
discussions have been around foregoing leveraging State assets, 
which is understandable. These considerations, multiplied by 50 
States, will take an enormous amount of time and effort. 
However, leveraging MARCS towers in Ohio could greatly assist 
in achieving NPSBN coverage necessary.
    There are some continued concerns. The FirstNet business 
model is still somewhat undefined, and, based on recent 
discussions at our State consultation, it will be defined by 
the successful bidder through the RFP process. A sustainable 
business model is critical to know and understand, and building 
the cost recovery and usage rates will be instrumental in the 
adoption of this effort. The FirstNet Chief Financial Officer 
recently discussed a potential user fee of $30 a month, based 
on four to 13 million users. This sets an expected bar for 
fees, and is close to what some current service providers are 
charging, but FirstNet should provide as good or better service 
at an equal or lower cost. As Vice Chairman Latta knows, we 
have MARCS users today that indicate that they cannot afford 
the $20 a month fee we charge.
    Additionally, further clarity around user community access 
and secondary use is required. Utilities are asking questions 
and making a strong case regarding priority access and spectrum 
for the critical data systems they support. Their inclusion as 
partners on the NPSBN could also provide sustainability for 
that future business model.
    There continue to be concerns regarding coverage. Recent 
discussions have focused on the urban areas, with a phased 
approach to address rural and remote areas. Currently Ohio's 
marked service coverage is 97.5 percent of the State. We would 
expect at least the same from FirstNet in Ohio. I understand 
the reason for this current focus, but I am concerned in the 
long run the rural remote areas of the State will be 
underrepresented. I will continue to press for a FirstNet 
coverage plan and schedule that clearly extends to these areas 
in Ohio.
    It is important to note that we are supportive of FirstNet 
and the Nationwide Public Safety broadband network. Ohio is 
uniquely positioned to take advantage of the significant 
opportunity to coordinate and converge multiple efforts. These 
efforts include the upgrade to our LMRS, MARCS, and Ohio's next 
generation 911 system. I look forward to our continued 
partnership with FirstNet, and ensure impacts to current 
initiatives are in alignment with Ohio's direction. Thank you 
for your time, and I will respond to any questions.
    [The prepared statement of Mr. Davis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Mr. Davis, thank you for your testimony, and 
that of Mr. Kennedy's as well.
    So, Mr. Kennedy, it appears there may be some conflicting 
information regarding the release of the final RFP, and I just 
would love to get some clarification. I understand FirstNet 
Chair Swinson estimated early 2016 when she testified before 
the Senate. Is that a pretty good estimate, early 2016?
    Mr. Kennedy. It is. I mean, we are shooting for the end of 
this year, but early 2016 is a very accurate estimate.
    Mr. Walden. All right. You state in your testimony that 
FirstNet has received more than 670 questions to the draft RFP 
you just released, and the comment period doesn't close until 
July 27. Sounds like a lot of stakeholders have a lot of 
questions. Given that level of inquiry, do you think you will 
be able to hold on to the early 2016 release of the RFP?
    Mr. Kennedy. Currently we are still holding on to that 
date, and we have been responding to the questions that have 
been coming in. We actually released the first responses last 
week, and we are going to continue to respond to the questions 
on an ongoing basis so that those questions can be acted upon 
by the teams, and the States, and the public safety 
stakeholders, who have been submitting questions.
    One of the things that we have done with the draft RFP is 
we have asked for feedback, and so both the questions and the 
responses that we hope to get by July 27, we are expecting a 
lot of interaction not just from vendors in industry, but also 
from States, and so we are excited to see the feedback that we 
are getting.
    Mr. Walden. And I assume that has been a pretty helpful 
process?
    Mr. Kennedy. It has.
    Mr. Walden. All right. What do you see as--I was just 
reading through this document that we entered in the record for 
the Rural Broadband Association, and some of their concerns 
about special issues, the rural areas, and being able to be a 
partner, and maybe partnering, or, conversely, if you end up 
commercializing some of the surplus spectrum, the effect that 
might have on the marketplace. Are those the sort of issues you 
are going to be addressing?
    Mr. Kennedy. We are, and we have asked for, in the draft 
RFP documents, ways to address not just the urban and suburban 
areas, but rural areas, as we look at rollout. One of the 
things with the capacity on the network, certainly there will 
be more excess capacity in the more rural areas.
    Mr. Walden. Right.
    Mr. Kennedy. We have also been working with groups like the 
Rural Broadband Association, and many others, to go out and 
reach out to the rural carriers and rural telecom providers and 
make sure that they are getting involved. We have been 
encouraging them to respond----
    Mr. Walden. Good.
    Mr. Kennedy [continuing]. To the draft RFP----
    Mr. Walden. Good.
    Mr. Kennedy [continuing]. And respond with solutions. And 
whether that is individually, or that is as teams, or working 
together in regions or different parts of the country, we are 
absolutely encouraging them to participate.
    Mr. Walden. Because it just seems to me the more you can 
minimize overbuild, or prevent it altogether, the better, 
because you have got to leverage the money that you have in the 
most effective way. So what are the next steps once the final 
RFP is released?
    Mr. Kennedy. Once the RFP is released, there will be 
certainly questions to come in on the final RFP. We will 
respond to those. We expect proposals to be returned after 
that. There is an evaluation period of those different 
proposals, and the ranking and rating that would normally 
happen with an----
    Mr. Walden. Um-hum.
    Mr. Kennedy [continuing]. Evaluation, and then any kind of 
orals, or other parts that could take part of the evaluation 
process. These do take some time. As you know, with large 
Federal procurements, we expect that this will take a 
significant amount of 2016 to occur, but we want to move with 
as much urgency for public safety as we can because we know 
they need this network, and we want to move into deployment.
    Mr. Walden. Our antennae always go up when we hear the IG 
is looking at an organization. I understand, while they are 
done with their first audit, they are back looking at some of 
the Federal issues. Can you elaborate a little bit about what 
they are looking at?
    Mr. Kennedy. Sure. The most recent request was to take a 
look at Federal outreach. Nothing out of the ordinary. We have 
been working closely with any requests that come from either 
the IG, or the Government Accountability Office, and we have 
been definitely following up with them. And we expected this to 
be a normal, routine cause of business as we go through 
deploying this network.
    Mr. Walden. And how soon before we would see some form of 
deployment of the network after you get through the RFP and 
all?
    Mr. Kennedy. We would expect that, once the RFP is awarded, 
that we will move into that first phase of deployment. We 
currently have about 5 years of deployment that is in the plan, 
the way the draft RFP is scripted today, so we are expecting 
about a 5-year buildout, post award of the contract for the 
initial buildout.
    Mr. Walden. All right, see if I have anything else. Yes, in 
your testimony you speak of a vision of developing a 
recapitalization model that will lead to the deployment of a 
fully self-sustained network. Could you describe this model, 
and what it means from the perspective public safety user 
States, and States that opt out of the network?
    Mr. Kennedy. Sure. The recapitalize model, from an opt-in 
and an opt-out perspective, is trying to make sure that the 
nationwide network, the core network itself, and the overall 
network will not be like a lot of past public safety projects, 
where we invest a large amount of Government grants and other 
funding into a system that cannot be maintained or upgraded----
    Mr. Walden. Um-hum.
    Mr. Kennedy [continuing]. Into the future. As all of you 
know, you are currently using phones that are leveraging 3G 
technology, leveraging 4G and LTE, and we are going to be 
leveraging advanced LTE, 5G, 6G, into the future. And so as we 
build this network, the goal is to make sure that we plan those 
costs, and that recapitalization, into the network cost, 
whether that is core fees related to an opt-out State, or 
whether that is actual user fees, and the covered leasing 
agreements related to opt-in States, and making sure that we 
have the ability to maintain and upgrade the network.
    Mr. Walden. All right. My time has expired. Thank you again 
for your testimony, and the answers to my questions. Turn now 
to the gentlelady from California, Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman. Before I begin my 
questions, I would just like to acknowledge the uniformed first 
responders that are in the audience with us here today. We 
salute you, we thank you for your service, and I will never 
forget how you were really the backbone of the effort moving 
the legislation through, so thank you for being here, and for 
everything that you do for our whole country. Thank you.
    Mr. Kennedy, circling back to the GAO, what prompted the 
review? Is this something that is----
    Mr. Walden. You mean the IG's----
    Ms. Eshoo. The IG review, yes.
    Mr. Kennedy. We are not aware of anything in particular 
that prompted the review itself. We believe it is a routine 
course of business----
    Ms. Eshoo. It is a routine--um-hum.
    Mr. Kennedy [continuing]. And this was the next area that 
they wanted to audit, which was Federal outreach.
    Ms. Eshoo. Good. OK. Well, we will have to make--avail 
ourselves to the report, and become familiar with it. We have 
had enormous struggles with interoperability in the radio 
space, and I want to make sure that the same thing doesn't 
happen again between FirstNet and NG-911. So can you tell us 
what FirstNet is doing to ensure that we don't have a standards 
mismatch between the LTE network built by FirstNet and our NG-
911 systems built by States and localities?
    Mr. Kennedy. Our statute clearly calls out and requires us 
to promote integration of the network----
    Ms. Eshoo. It does. Uh-huh, yes, the law does.
    Mr. Kennedy [continuing]. And we have absolutely built that 
into our draft RFP documents. We have leveraged it in our 
outreach, and we have worked very closely with the 911 
community.
    Ms. Eshoo. Good.
    Mr. Kennedy. Today in the audience some of the team from 
APCO was here. APCO has been very much a supporter of FirstNet 
in making sure that we maintain this integration focus that 
needs to occur between next gen 911----
    Ms. Eshoo. Um-hum.
    Mr. Kennedy [continuing]. And existing 911 and public 
safety answering point services. We are also bringing on a 911 
subject matter expert onto the FirstNet team to make sure that 
we are very focused in reaching out to all of the dispatch 
centers, and all of the communicators across the country, so 
that their needs are included. And they are often at our 
consultations and our different discussions as we go across the 
country. So we believe that we are working very closely with 
the 911 community, and that that integration will occur.
    Ms. Eshoo. Good. That is excellent. Mr. Davis, thank you 
for the work that you are doing. You gave quite an extensive 
report in your testimony. Thank you very much. I mean, it 
represents a ton of work, as my kids would say. How, in your 
view, do you think the whole issue of interoperability between 
FirstNet, the States, the NG-911 systems, is working?
    Mr. Davis. I think it is too early to tell, from a State 
perspective. Right now we are working through the technical 
requirements on how we would do that from a State perspective. 
Historically, that has come from local government, and we are 
trying to put guidance out to local government to make sure 
that they are following the standards and the----
    Ms. Eshoo. Um-hum.
    Mr. Davis [continuing]. Approach that we would take. I am 
excited to hear you have a 911 expert on your team, because I 
am sure we will be reaching out and trying to leverage the 
technology and the standards that you guys will be 
implementing.
    Ms. Eshoo. Um-hum. Beyond what you just shared, do you 
think that the atmospherics have become--I don't know what 
other word to use. I mean, there were tensions in the 
beginning, and the--on the part of some, a reluctance to be a 
part of this effort. Can you tell us anything about how that 
has improved, in your view? Do you think that it has?
    Mr. Davis. Significantly improved.
    Ms. Eshoo. Good.
    Mr. Davis. I think----
    Ms. Eshoo. That is wonderful.
    Mr. Davis [continuing]. In the last year----
    Ms. Eshoo. That is so important.
    Mr. Davis [continuing]. And a half, in terms of the 
outreach, the collaboration, the communication, these 35 
States--I mean, that says a lot, when you are going out and 
talking to the States.
    Ms. Eshoo. Um-hum.
    Mr. Davis. And we do get together from--regional 
perspective. We get together from--even a national perspective, 
and we talk. And so that--and you know that, right? So the 
consistency of the message is very concerning for us to hear 
that, you know, somebody said something in a different State. 
And that message is clear. It--the collaboration, I think, is 
there. The integration and the communication has been 
consistent, and I think things are moving in the appropriate 
direction.
    Ms. Eshoo. And is there a comfort level to advise the Board 
as to how--if there are ways to improve that, do you feel 
comfortable saying so, or others?
    Mr. Davis. I think there is always room for more 
communication----
    Ms. Eshoo. Um-hum.
    Mr. Davis [continuing]. And transparency. I think it will 
be interesting to see the responses that come back from the 
RFI----
    Ms. Eshoo. Um-hm.
    Mr. Davis [continuing]. And the sharing of the information, 
and the----
    Ms. Eshoo. Um-hum.
    Mr. Davis [continuing]. Comments that come back from that. 
I think that will be a significant assistance and help.
    Ms. Eshoo. Great. Thank you very much. Yield back, Mr. 
Chairman.
    Mr. Walden. The gentlelady yields back. The Chair 
recognizes the vice chair of the subcommittee, Mr. Latta, for 5 
minutes.
    Mr. Latta. Well, thank you, Mr. Chairman. And again, Mr. 
Kennedy, Mr. Davis, thanks for being here today with us. We 
really appreciate it, for the update. And, Mr. Davis, if I 
could ask you, I noted in your testimony that you advocate a 
regional approach to planning and development, capitalizing in 
part on the partnership between the States in FEMA regions, and 
the history of that kind of collective work with regard to the 
land mobile radio communications. Would you be able to expand 
on that for us, please?
    Mr. Davis. Sure. There is a long history of communication 
between the States in the FEMA 5 Region. They all have land 
mobile radio systems that we share and share alike, and lessons 
that were learned in Minnesota are things that we, you know, 
don't have to break our teeth on, if you will, in another 
State, in Ohio, for example.
    So that communication came out, and it was really more 
about making sure that we could be heard through the process. 
In the early days, in 2013, there were concerns that, as a 
State, our voice might be minimized, and we felt it as--moving 
into a regional approach like that, we could not be dismissed, 
when you start to talk about the population that is served, the 
towers and the infrastructure that is there, and the way that 
those land mobile radio systems are working today. So there 
have been very, very strong communication between all of those 
coordinators in those States.
    Mr. Latta. Just not between the States, do you think 
FirstNet's doing enough to take advantage of that regional 
approach, then, that you have already been working on?
    Mr. Davis. I think it is starting to take some root, if you 
will. I think originally there were some----
    Mr. Latta. Yes. Would you want to elaborate on that?
    Mr. Davis. I think originally--I think FirstNet was a 
little concerned, and this is my own perspective, I probably 
shouldn't say that, but I will. And then I think, as they began 
to see the opportunity, that that really brought it to the 
table, and we had FirstNet come to one of those region five 
meetings. And it is a great opportunity for us to hear the same 
things, and to get everything out on the table, and have that 
constructive debate on how this thing is going to come 
together. And so I think that regional approach has been 
helpful, and I think--I would hope that T.J. would say the same 
thing.
    Mr. Latta. Would you like to comment, Mr. Kennedy?
    Mr. Kennedy. Sure. As somebody who did go out to that 
Region 5 meeting, and I brought with me my Director of 
Consultation, as well as Director of State Plans, the 
interaction was terrific. It was a nice snowy day in Chicago. 
We got together with all the States in Region 5. And I think 
what was very beneficial was the pros and cons from different 
States, with different geographies, and different issues, and 
common problems and issues as well. And I think it made for a 
great dialogue and discussion.
    We have also been staffing up our consultation and outreach 
teams by region now, and we actually are leveraging the 
FirstNet regions, which are the same as the FEMA region. So we 
are leveraging that kind of regional cooperation, much like 
Region 5 set as a good example. So we are taking that example 
and leveraging it in other parts of the country.
    We also did something this year that I think is even taking 
that to the next step, in that we held a nationwide single 
point of contact meeting. So--both Stu Davis, and all of the 
other single points of contacts from all the 50 States, and the 
territories, and the District of Columbia we invited to a 
nationwide--meeting where we all came together. Over--I think 
52 of the States actually brought different team members to 
that meeting, and we were able to share the differences in the 
issues, and talk very openly in 2 full days of discussion.
    I think you could kind of rate the discussion by--at 5 
o'clock on the second day, everyone was still in the room, 
having a very fruitful discussion. We had breakout sessions 
where we could dive deep into elements around the RFP, or the 
public notices. And that kind of dialogue has been extremely 
helpful, I think, both for FirstNet, but also for the States, 
and I think that we both gained from it.
    Mr. Latta. Let me ask Mr. Davis, if I could, just on a 
follow up, if you are going to look into the crystal ball and 
look into the future, where do we need to be with the States 
and FirstNet right now? You know, where do we want to be in the 
next year? What do we need to be doing? What else?
    Mr. Davis. Well, I think right now, I think, with all the 
planning that is going on from each individual State, and that 
coalescing of all that information across the--at least the 
FEMA five regions, I think that is really on us to sort of get 
some of that together and make sure that we are getting it to 
FirstNet.
    I think that the next steps are really the schedule, and 
how this thing comes out, and how it gets rolled out at some 
point in time. Because, again, like I said, I am concerned 
about the rural and remote areas of the State, to make sure 
that we have the appropriate coverages. I certainly understand 
the logic behind the approach that they are taking, but some of 
this can be done on parallel. We just need to make sure we are 
doing it.
    Mr. Latta. If I could just touch real briefly--and my time 
is about up--because, especially when you are talking about the 
rural parts of the State--because, you know, when I look at my 
district, in northwest/west-central Ohio, I go from urban, 
suburban, to very, very, very rural areas--and especially when 
I am out talking to my first responders out in the rural areas, 
there is always that question about coverage. And when you have 
talked to folks in the rural parts of Ohio, I don't care if it 
is in the northwest, or the southwest, or northeast, or 
southeast, what are they telling you right now?
    Mr. Davis. Well, they are all interested to know what kind 
of coverage they are going to have to----
    Mr. Latta. Right, and--but do they think that they will get 
that coverage?
    Mr. Davis. I think that they do assume that that is--I 
think the original message that was coming out of FirstNet in 
the very early days was consistent coverage across the entire 
country. And, you know, my--obviously our fervent hope is that 
that actually happens. But the question is the timing for those 
rural and remote areas is going to be critical, because--and 
that goes back to the business model as well, because how much 
are you willing to spend for what you are going to get form 
that out of the gate.
    Mr. Latta. Well, thank you very much. Mr. Chairman, my time 
has expired, and I yield back.
    Mr. Walden. The gentleman yields back. The Chair recognizes 
the ranking member of the full committee, Mr. Pallone, for 5 
minutes.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask Mr. 
Kennedy first about Jersey Net, and then I wanted to ask a 
question about tribal lands, so I am trying to get this all in.
    Nearly 3 years ago Hurricane Sandy devastated New Jersey. 
The natural disaster was compounded by communication failures 
across the State, and that is why I have been such a supporter 
of making New Jersey's one of FirstNet's early builder 
projects. I know that early on, however, critics pointed to the 
struggles Governor Christie had getting this project off the 
ground as an example of why FirstNet couldn't work, and I 
believe that we have been able to turn this project around 
since then.
    I had hoped to ask one of the architects of the success in 
New Jersey about how he did it, because I thought his 
experience would help make other jurisdictions successful, but, 
unfortunately, the Governor prevented him from being here 
today, so I have to ask you, Mr. Kennedy, what do you think of 
the progress Jersey Net has made, and can you elaborate on the 
lessons that FirstNet hopes to learn from New Jersey's early 
deployment of its public safety broadband network?
    Mr. Kennedy. New Jersey and Jersey Net are currently 
deploying and testing their first sites this week, so the 
program is making terrific progress, and Fred Scalera, and the 
team in New Jersey, are very eager to get this project 
completed by September of this year. They are on track to do 
that. They have been working very closely with the FirstNet 
team as well, and sharing lessons learned as they move forward.
    The project is helping drive a strong ecosystem to lessons 
learned across devices, looking at early devices, and ways to 
leverage the network, and also looking at ways to use 
deployables so that in events like Hurricane Sandy in the 
future, those deployables could be moved into an area that has 
been affected by a natural disaster or other event, and 
actually really leverage both capacity and coverage needs that 
may change due to those kinds of planned and unplanned events 
that occur.
    So I do believe that the Jersey Net system is a great 
platform for FirstNet to learn from. I do think the team is on 
track to complete the project by September of this year, and 
that we will be getting lessons of an operational flavor as 
early as fall of this year, and we look forward today.
    Mr. Pallone. All right. FirstNet was created to be part of 
NTIA, which is part of the Department of Commerce. It seems to 
me, though, that you might be able to deploy the network faster 
if FirstNet was spun out of the agency. So do you think 
FirstNet has reached the point where it can stand on its own as 
an independent corporation, and if we are not there yet, what 
needs to happen first?
    Mr. Kennedy. I think FirstNet has grown a lot from the 
early days. I believe that, when we started, we relied very 
heavily on NTIA and the Department of Commerce for a lot of key 
functions. As we have been able to build up our staff, we have 
been able to take on some of those key corporate and governance 
functions of the organization. We have moved things like 
finance entirely into the FirstNet organization, and now we are 
looking at key elements, like human resources, and procurement, 
and how that can be taken on by FirstNet in the future.
    So I do believe that we are maturing, and I do think that 
that kind of responsibility and accountability for FirstNet is 
something that we are growing into, very much so.
    Mr. Pallone. OK. I want to ask you about tribal lands. I 
try to bring up American Indian issues when I can. Nowhere is 
our Nation's digital divide more apparent than on tribal lands. 
The lack of communications on tribal lands has not just had an 
economic impact, it is also led to real difficulties with 
public safety communications. And I think one of the overlooked 
virtues is this potential importance to improve deployment of 
broadband infrastructure to tribal lands.
    So how is FirstNet coordinating with tribal public safety 
entities, and how will FirstNet address areas like tribal 
lands, which may have very little existing communications 
infrastructure?
    Mr. Kennedy. FirstNet understands the special importance of 
reaching out to the tribal communities, many of which have an 
acute need for broadband deployment. We have a tribal outreach 
lead that is full time on FirstNet, and does nothing but 
interact on a regular basis with the public safety community on 
different tribal lands, as well as the telecommunications, and 
different elements of communications on the tribal lands, and 
what they can do to help as FirstNet deploys. We have actually 
created a tribal working group on the Public Safety Advisory 
Committee. I personally have spent time meeting with them all 
day, talking about the issues that are different in tribal 
communities that need to be supported by FirstNet as we develop 
the network and deploy the network.
    I see a lot of desire for FirstNet to succeed on--with 
supporting tribal public safety. They have been very eager to 
work with us and help us understand their needs and desires. 
And I do think that our recent consultations in States like New 
Mexico, just recently last week, and we are looking at specific 
tribal needs as we go through State-by-State consultations, 
really is a great opportunity for us to make sure that we get 
it right.
    Mr. Pallone. All right. Thanks a lot. Thank you, Mr. 
Chairman.
    Mr. Walden. The gentleman yields back. The Chair recognizes 
the other gentleman from New Jersey, Mr. Lance, for 5 minutes.
    Mr. Lance. Thank you, Mr. Chairman, and good afternoon to 
the panel. New Jersey's project is notable for its use of 
deployable long term evolution communications technology for 
its first responder network, called Jersey Net. This mobile 
network system can be incorporated on towable trailers, SUVs, 
vans, and other platforms to be deployed quickly in emergency 
situations or natural disasters, like Hurricane Sandy, or to 
places where communications are limited or non-existent. It is 
my understanding that rural areas, which comprise about 90 
percent of the country, in geography, are particularly 
vulnerable, since there is no built-out fixed infrastructure.
    In this regard, and I go to you, Mr. Kennedy, could you 
provide guidance on how you plan to incorporate deployables 
into your buildout plans?
    Mr. Kennedy. We have been looking at deployables not just 
for rural deployments, where it may not be cost-effective to 
have terrestrial elements, we want to have as much terrestrial 
in rural areas as well, but also from the capacity and the 
reconstitution of a network. There are special events that 
occur, large gatherings, you, you know, Super Bowls, large 
sporting events, other things that would require an additional 
capacity in certain areas where deployables can be 
effectively----
    Mr. Lance. All Super Bowls should be in New Jersey, Mr. 
Kennedy.
    Mr. Kennedy. Absolutely. The----
    Mr. Lance. It is on the record.
    Mr. Kennedy. The temperature of Super Bowls in New Jersey 
in that time of year can be a little cold at some times----
    Mr. Lance. No.
    Mr. Kennedy [continuing]. Just wanted to throw that out. 
The need for reconstituting a network after a natural disaster, 
though, is an excellent opportunity for deployables, where we 
can have deployables that are moved out of the way of a 
particular disaster, if we have warning, and can move them back 
in to make sure that public safety can communicate immediately 
after a major event. It also is supportive of terrorist events, 
or other events that may take out existing infrastructure, 
critical infrastructure.
    Lastly, there are many parts, as you mentioned, of the 
United States that are very rural, and it may make more sense 
to have deployable assets leveraging satellite backhaul, and 
other elements, to get to parts of the United States that are 
very difficult to get to. When I was a first responder, I was a 
police officer and a firefighter in very rural parts of Utah. I 
went to places that were not covered by cellular networks or 
land mobile radio networks, in many cases. So, having that 
ability to get communications much deeper into our rural 
communities for public safety is absolutely critical.
    Mr. Lance. Thank you. And, on another topic, FirstNet has 
sought comments on the definition of public safety entity on 
two occasions, and, as I understand it, based on press reports, 
there seems to be some debate among stakeholders. Mr. Kennedy, 
could you describe this debate, and the implications of the 
definition of that term for FirstNet's deployment?
    Mr. Kennedy. We have actually had a terrific, I think, 
conversation with both public safety, the States, and industry 
on the definition of public safety entity. It was in both our 
first public notice, and our follow-up third public notice. We 
saw overwhelming support from the States. Many States, 
including Ohio, mentioned the elements related to leveraging a 
broad user base to support the network that public safety needs 
to have access to. But, most importantly, that user base is 
somebody that needs to be contacted by the incident commander 
during big incidents.
    And if we look at emergencies that occur, everyone 
understands that police, fire, and emergency medical services 
are part of our everyday public safety response. But also there 
are others, whether it is a utility worker, or whether it is to 
access some key transportation support on a major accident 
scene on an interstate highway. You may have other users that 
are in contact with public safety every day, supporting public 
safety operations, and, most importantly, needing to be 
prioritized by an incident commander to be spoken to during 
those large emergencies, when networks get congested.
    And so we have tried to be very clear on making sure that 
we get input from States on who should be on the network, and 
we have received a lot of input on that issue. We have not 
issued our final recommendation for the outer guardrails of 
that public safety entity definition, but I think with the 
tremendous amount of input that we have received, it has helped 
us build a broad definition that will cover what needs to 
occur, and also be prudent in acting with the act.
    Mr. Lance. In the press there has been some discussion as 
to the difference between six million to 13 million users, 
estimates. Could you give your best advice to the committee on 
that?
    Mr. Kennedy. Sure. In general, our market research has 
shown that there are about four million public safety 
traditional users that would want to engage on the network, if 
they were given that opportunity, and so we look at that as an 
addressable market. It is about four million police, fire, and 
emergency medical services personnel. The nine million, or up 
to 13 million, number comes from those other types of users we 
just described, so Department of Transportation officials that 
may be supporting that. They may be buses or transportation 
that moves folks during an evacuation. That is commonly needed 
when you have a hurricane coming into an area, or you are 
evacuating a hospital, or a nursing home, or other large 
facilities that you might need to evacuate during an actual 
emergency. Having that kind of broader public safety first 
responder community that can support that is important, and so 
that is where that other nine million comes from.
    Mr. Lance. Thank you. My time is done. Thank you, Mr. 
Chairman.
    Mr. Walden. Thank you, Mr. Lance. We turn now to the 
gentlelady from New York, Ms. Clarke. Do you have any 
questions?
    Ms. Clarke. Mr. Kennedy, Mr. Davis, thank you for 
testifying here today. Coming out of the New York experience in 
9/11, and understanding that there have been a host of 
iterations of I guess ways of becoming interoperable, I want to 
know whether we are looking at how we maximize on the 
infrastructures that have already--that are already in 
existence, whether FirstNet will be an underlay of those 
systems, or are we talking about essentially putting those 
systems aside, and deploying FirstNet as the main vein, if you 
will, of communications not only in the New York region, but I 
guess across the Nation.
    And I say that because I look at the major investments that 
have been made in a city like New York. A whole new 911 
infrastructure has been put in place. There are a lot of 
taxpayer dollars there. Is there a way that you have looked at 
the assets of various regions around the Nation and looked at 
what could be amenable to the new deployment from a broadband 
perspective, or whether you see those being phased out, 
basically, over time so that this becomes sort of the primary 
tool for communication and coordination?
    Mr. Kennedy. So to your 911 public safety answering point--
question specifically, I absolutely believe that the 
integration both with the existing public safety answering 
points, and those that are upgrading to next gen 911, is a key 
part of what we are doing, and that integration will leverage 
those investments that have already been made.
    When it comes to using voice capability with land mobile 
radio, and using voice, video, and data related to LTE and 
broadband technology, I believe they are complimentary, and I 
believe that the land mobile radio systems that agencies have 
today should be--continue to be maintained, and those systems 
are very valuable to public safety. It is what I have used in 
my career. It is a very valuable tool to public safety. I do 
think that broadband will bring a richness of applications, and 
the ability to have not just interoperable voice 
communications, but interoperable data communications. I am 
able to share more information across police, fire, and 
emergency medical services.
    So I believe that they are complimentary to each other, and 
that the richness that you can get in a broadband environment 
will add to saving lives in different ways than we do today by 
being able to share video, and sharing data much quicker, and 
in ways that, in some cases, we haven't even thought of the 
amazing applications that will be supporting our police 
officers, our firefighters, and our paramedics.
    Ms. Clarke. That was a good answer. My next question to you 
is, for those parts of the country where you have sort of a 
voluntary first responder infrastructure, have you thought 
about how the usage of FirstNet will be communicated, and are 
they already integrated into I guess networks of conversation 
around the deployment of FirstNet, and how they will interact 
with it? Because, of course, their--primarily stand up their 
operations on a volunteer basis, and--but they play a very 
crucial role in responding in remote areas, where there isn't 
necessarily a municipality that does so. Could you give us some 
insights into that as well? And any feedback you may have 
gotten from those communities.
    Mr. Kennedy. Volunteers are absolutely critical in public 
safety. You can go to almost any State in this country, and 
volunteers are a backbone of what occurs in public safety. 
There are volunteer firefighters and EMTs across this country 
who serve big communities and small communities. There are 
communities in New York that are quite large that are served by 
volunteers every single day, and so they are a part of this 
network. They are a key component that are going to leverage 
this network. When we go out and do consultations, we are 
consulting with paid professional services, we are consulting 
with volunteer professional services, and we are making sure 
that they are at the table, and invited, and part of those 
conversations.
    One of the biggest things we hear is they want to make sure 
that they are able to buy service, and we have made sure in our 
definitions that volunteers are clearly called out as being 
able to buy service, and be a part of that. And so we think 
they are a critical component, and will greatly benefit from 
having costed--affordable devices that they can get their hands 
on, not just for voice communications, but also for 
applications and other uses as well.
    Ms. Clarke. And in the protocols that are I guess being 
established, is there a component of that that looks at the 
security of the system, and how is that being baked in, and 
also how are you containing sort of access to that? Everyone in 
the Nation is just concerned about cyber, and I just wanted to 
get your feedback.
    Mr. Kennedy. Cyber is an absolutely critical element for us 
in--at FirstNet, and--with public safety. And we are trying to, 
and we have the unique opportunity, as we develop a network 
that is going to be deployed, that we can start from the 
beginning and bake in security from day one. We brought on a 
security architect, who is now part of our team, who is focused 
on this. He has been leveraging the Department of Homeland 
Security and other key agencies that have a number of cyber 
efforts that are already underway.
    We are not reinventing the wheel. We are leveraging a lot 
of the best practices that are in place, both in the private 
sector and in Government today. But we want to make sure that 
the unique environment of a number of networks that have 
typically been stove-piped are separate, that when you bring 
them together it is going to be absolutely critical that, when 
we have all these different agencies that are leveraging this 
network, that--not just cyber security, but also identity and 
access management will be a critical component of what we do. 
And it is going to be unique, because we have folks at the 
local level, we have folks at the State level, and folks at the 
Federal level who will be leveraging the network.
    Ms. Clarke. I thank you very much for your response. I 
yield back. Thank you, Mr. Chair.
    Mr. Walden. The gentlelady yields back. The Chair 
recognizes the gentleman from Ohio, Mr. Johnson.
    Mr. Johnson. Thank you very much, Mr. Chairman. Mr. 
Kennedy, as you know, the law governing FirstNet included a 
provision that would allow the States to opt out of the 
FirstNet network and deploy their own network, then connect to 
FirstNet. So I have got a few questions about how this opt out 
process will work, particularly given that the region of the 
Nation, the region of the State that I represent is very rural. 
So I have some questions.
    Given the projected release of the FirstNet request for 
proposal at the end of 2015, or the beginning of 2016, what is 
the likely timeline for Governors to make their decisions as to 
whether their States will opt out, or in, to FirstNet?
    Mr. Kennedy. The anticipated timeline would be late in 2016 
to early in 2017 timeframe, when they would be presented with a 
State plan. It is at the presentation of a State plan when a 
State Governor then would have the opportunity to opt in to the 
network, or to take on that responsibility for themselves to 
deploy the radio access network in their State.
    Mr. Johnson. OK, all right. Will the Governors have all of 
the data points, such as specific cost per user, available to 
them in time for them to make an informed decision to opt in or 
opt out, and what are your plans to communicate the kind of 
information that the Governors will need to make that decision?
    Mr. Kennedy. Our plan is to do a very a detailed RFP 
process that will produce the kinds of information that outlay 
the costs and the expected offsetting revenues that can support 
the network, and to drive all that information, in addition to 
things such as coverage objectives, into a State plan. It is 
that State plan that is that document that provides the 
information that will give them the ability to make that as an 
informed decision.
    And, as part of the consultation efforts that are now 
started and ongoing, we expect ongoing conversations over the 
next 18 months on exactly these topics----
    Mr. Johnson. Um-hum.
    Mr. Kennedy [continuing]. And to discuss them, and to share 
information in a two-way dialogue, so that when that State 
planning gets to the desk of a Governor, it should not be the 
first time that they are hearing about it.
    Mr. Johnson. Um-hum.
    Mr. Kennedy. Many folks, just like Mr. Davis here, as a 
CIO, have been very actively involved for exactly this reason, 
in addition to wanting to see the importance of this network, 
but they have a job to inform their Governors. They have a job 
to make sure that they are watching this closely, and they are 
participating.
    One of the things that I have seen is the more that folks 
are participating, the more informed they are, and the more 
that we can share and have that kind of informed dialogue, and 
I think that is absolutely critical. Having CIOs, State public 
safety commissioners, and also local police, fire, and EMS 
leadership, in addition to the Governors themselves, you know, 
learning and getting involved with FirstNet is one of the best 
ways to understand that key decision to opt into the FirstNet 
deployment of the network, or to take on that responsibility to 
deploy it themselves in the State for the radio access network.
    Mr. Johnson. Well, let us say a State opts out. Are there 
revenues, and if so, what type of revenues might be available 
to them to help support their end of the network?
    Mr. Kennedy. This is a complex topic, in that there are 
revenues that could come from spectrum management lease 
agreements, both to FirstNet, but also for supporting that kind 
of deployment. But one of the things that we have explored in 
our second notice is exactly how this mechanism will work, and 
we are still digesting the comments that we have recently 
received on that, so there is more to come on that in the 
future.
    Mr. Johnson. OK, great. Mr. Davis, you state that FirstNet 
has made significant progress in communicating with you on 
concerns that are being raised. So, as we get closer and closer 
to the endgame here, to the expected final RFP, do you have any 
specific recommendations on how we can improve this 
communicating process?
    Mr. Davis. Actually, you know, the--Executive Director 
Kennedy has been pretty transparent. I think the more 
transparent they are, the more that we have--that conversation 
is going on, so that there isn't surprises in the end. And even 
if we know it may not be perfect, it is still better to know--
--
    Mr. Johnson. Um-hum.
    Mr. Davis [continuing]. Early so that maybe we can assist 
in that process. But I think--right now I think everything 
seems to be rolling along fairly well. The proof will be in the 
pudding, as we get all of our planning documents together. 
There has been a lot of communication in Ohio with the--all 
different levels of first responders, the volunteer firemen, I 
mean, everybody. We have those meetings on a regional basis 
just within Ohio to communicate what is coming, and what they 
should be expecting, and what information we need from them so 
that we can be able to articulate that----
    Mr. Johnson. In 10 seconds let me ask you one final 
question. So who are the current users of the Ohio land mobile 
radio system, and once deployed, do you envision the public 
safety broadband network in Ohio to have a similar user base? 
And if so, why or why not?
    Mr. Davis. There are quite a few folks. I think there--
right now, today, I think there is about 50,000 users on our 
system. The majority of those are coming out of public safety 
and State agencies, as well as the sheriff's office, and 
others, and local law enforcement and emergency response.
    I think that right now our network doesn't handle the data 
requirements that you will see from FirstNet. I mean, that is 
the key, is getting access to the applications in a quick 
fashion. That push-to-talk component is a pretty critical 
thing. It is a closed system. We have other entities on there 
besides State and local government folks. I think the Federal 
Government has some process in there. But I think we have three 
towable towers that we pull in too when there are emergency 
situations.
    But, for the most part, that is focused on really that 
push-to-talk communication piece, and nothing is more important 
than somebody outside, by himself, being able to press a button 
and get a response.
    Mr. Johnson. OK. Thank you. Mr. Chairman, I yield back.
    Mr. Walden. The gentleman yields back. The Chair recognizes 
the gentleman from Missouri for 5 minutes. I am sorry. I am 
sorry, Mr. Doyle. Sorry, I got ahead of myself.
    Mr. Doyle. Thanks, Mr. Chairman, and thank you to the 
witnesses for your testimony today.
    Mr. Davis and Mr. Kennedy, I have heard some concerns from 
some of the public safety community in Pennsylvania about who 
will qualify to use FirstNet, who will make the final decisions 
about eligibility. Beyond police, firefighters, and other first 
responders, there are other individuals and organizations that 
play an important role in emergency response. Shouldn't States 
ultimately decide who has both permanent and temporary access 
to the first responder broadband network? For instance, if a 
building is on fire, and police or firefighters, they might 
find it very valuable to be able to communicate with the 
building security, or those in charge with managing the 
evacuation. Shouldn't the incident commander in these cases be 
able to make the final decision about who has access to the 
network?
    Mr. Kennedy. From our perspective, we have overwhelmingly 
heard that from States as well, and our current definition 
would allow them to do that. Our current definition would allow 
the incident commander to have access to all those type of 
entities that would allow them to communicate and handle that 
scene, no matter how large or small that it is. Our third 
notice was very much focused on that, and our third notice just 
closed last week. As we digest those comments that came in from 
States and from others, we will come out with a final 
determination, but our goal was to be very responsive to those 
requests that have come in from the States.
    Mr. Doyle. Great, thank you. Mr. Kennedy, first responders 
in Pittsburgh, and many other cities across the country, use 
the T band for communications, and, as part of the Spectrum 
Act, the FCC will reclaim that spectrum. Do you see the 
deadlines that are set for that process as being problematic 
for first responders that depend on that spectrum to 
communicate, or do you believe FirstNet will be online in the 
effective localities in time to mitigate this shift?
    Mr. Kennedy. There are a couple elements to this. We are 
aware of the concerns of those public safety jurisdictions 
using T band spectrum today, and the T band relocations 
provisions that are part of the act. It is the FCC, however, 
that is in charge of that T band relocation, and it would be 
better for them to answer specific questions about timing and 
so forth related to that effort.
    FirstNet, we have been very focused on working with the 
international standards community, the 3GPP community, Third 
Generation Partnership Project, that is focused on making sure 
that we have a standards-based approach that goes to putting 
mission critical voice in the future on our network. At 
deployment of the network, we are looking at having non-mission 
critical voice, or what you would look at as cellular-type 
communications, or over the top communications, on broadband, 
and plan to offer that as part of the initial deployment.
    But when it comes to mission critical voice communications, 
we are really looking at leveraging those international 
standards to make sure that we only go to those key seven 
functions that are part of the mission critical voice standards 
that are being done right now, and that they are implemented 
not just in the standards bodies, but that they are being 
utilized, and that public safety builds a trust up that those 
standards are ready for them. And public safety will decide 
when they are comfortable with mission critical voice on 
broadband in the future.
    So that is happening. The standards bodies are working to 
have that initial standard done by mid-2016. It will take some 
time for that technology to get into the actual technology 
ecosystem. And there are some other countries around the world 
that are actually looking at moving to mission critical voice 
sooner than the United States that will be doing some testing. 
But, for us, we want to make sure that public safety is 
confident in both the technology, and in the standards, and 
that they have been rolled out, and that they are using the 
network for other purposes first.
    Mr. Doyle. Great. Gentlemen, thank you. Mr. Chairman, I 
will yield back.
    Mr. Walden. Thank you very much. The gentleman yields back. 
Now the gentleman from Missouri is recognized for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. Mr. Kennedy, it appears 
that, in many rural areas, first responders will have to rely 
on roaming with existing rural wireless providers for network 
coverage, instead of using the national public safety broadband 
network. How and when are you planning to address roaming 
coverage?
    Mr. Kennedy. Roaming is certainly something that was 
envisioned in the act, and we are allowed to enter into roaming 
agreements, but we are also looking at leveraging rural 
buildout milestones, and making sure that we have rural 
buildout at every phase of deployment of the network. So we are 
looking at both the deployment that needs to occur, but also 
looking at, when we get to a final RFP, what kind of efforts 
can be leveraged for roaming that is cost-effective that can be 
added to the network as part of that solution as we go forward.
    Mr. Long. Any speculation on how long that building would 
take, the----
    Mr. Kennedy. As far as building the network right now, we 
proposed in the draft RFP that 20 percent of the rural buildout 
milestones would be covered in each phase, which would be a 
year. So 20 percent in year 1, 40 percent in year 2, 60 percent 
in year 3, and so on. And so we believe that that will allow 
for ongoing rural buildout at each phase, rather than saying it 
is all just waiting to the end, which is one of the concerns 
that we have heard.
    So we have tried to be very clear to proposers who are 
looking at bidding on the network that rural buildout is very 
important to us. We are also trying to encourage rural 
telecommunication to--telecommunication firms to be a part of 
those solutions, and to bid on the network, and be a part of 
bringing solutions to the table that will allow that rural 
deployment to occur.
    Mr. Long. OK. FirstNet's partners are allowed to use the 
excess capacity on the FirstNet network to offer wireless 
services to commercial subscribers. How will FirstNet ensure 
its partners do not compete against existing commercial 
networks, particularly in the high cost rural areas where there 
population density often will not sustain more than one network 
to begin with?
    Mr. Kennedy. One of the things in the act is that it 
requires us to look at the economic desirability of anyone 
proposing to bid on the network, and look at the different 
approaches to both, you know, leveraging different types of 
infrastructure, rural telecommunications infrastructure, 
existing Government infrastructure, commercial infrastructure. 
And so we are going to look at what is most cost effective to 
deploy the network, and also to have sustainability on the 
network.
    As part of those offers, they actually have to bring to the 
table what kinds of revenues would they bring to the table to 
offset the costs of public safety in both deploying, 
maintaining, and operating the network. And so it is important 
for us to look at the greater good of public safety, and how 
they would be served by those covered leasing agreements, or 
those agreements by potential partners or offers to leverage 
the network, whether that is in rural areas or in urban areas.
    Mr. Long. That is my next question. In terms of location, 
where will the service first and most likely be available, 
urban areas, or urban and rural, or what can we expect?
    Mr. Kennedy. It is urban and rural. And--so just like I 
mentioned earlier, we want to have those rural buildout 
milestones at each phase, so certainly urban areas will get 
built out. Your largest number of population and public safety 
providers, public safety entities, are actually in the more 
populated areas. But we also see that going to the rural area, 
so we want to make sure that those rural buildout milestones 
help drive that as an incentive to make sure that rural was 
built out at each phase.
    Mr. Long. And 3 years behind us, when do you thank that 
FirstNet will actually start providing service?
    Mr. Kennedy. I believe that FirstNet will start providing 
service as soon as we start to deploy the network, and States 
and areas are actually built out, and up and tested, and on the 
network. Currently we see the network starting to be awarded, 
as far as deployment, in 2017, and so you will see it 
probably--in the year after that that you will start seeing 
deployment of the network, and actually being up and operating 
in different areas.
    Mr. Long. So you think the--it will be up in 2018?
    Mr. Kennedy. I think parts of the network will be up in 
2018, and it will continue to deploy on a regular basis. One 
thing with wireless networks is they are ongoing deployments, 
and so we have the initial deployment, which we are talking 
about a 5-year buildout of that deployment, from 2017 through 
2022, but we also believe that the overall network will 
continue to grow after that, but there will be additional 
coverage that is added. There is additional capacity that is 
added. It is not a static network. So every part of the country 
that even has initial deployment will continue add to that 
deployment as time goes on.
    Mr. Long. OK. Thank you. Mr. Chairman, I yield back.
    Mr. Walden. The gentleman yields back. The Chair now 
recognizes the gentlelady from Colorado for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman. I just wanted to 
ask--Mr. Kennedy, I wanted to ask you about some of the efforts 
in Colorado. As part of the successful AWS-3 auction, NIST, 
which as--has labs in Colorado, received $300 million for 
research on standards, technologies, and applications to 
advance wireless public safety communications. Now, my 
understanding is that this research is in consultation with 
FirstNet, so even though NIST only recently received the 
funding, I am wondering if you can give us the status of those 
consultations?
    Mr. Kennedy. I can. We actually met with NIST last week. 
One of the things that we have right now--every June is a 
public safety communications research conference, and that 
conference is done with NIST and the public safety 
communications research lab at NIST. And it was held just last 
week, and literally over 500 key stakeholders came together to 
talk about the technical aspects, and the different research 
and development aspects of not just the public safety network, 
but public safety communications in general.
    We actually sat down with the NIST team and started to 
consult and discuss on that grant program regular ongoing 
communications with both the NIST director and Dereck Orr, who 
was the Program Director of the PSCR labs. I believe we worked 
hand in glove with them, and that the team at NIST is very 
focused on bringing solutions to----
    Ms. DeGette. Yes.
    Mr. Kennedy [continuing]. Public safety on the LTE----
    Ms. DeGette. Great. OK, good. Now, you told some of the 
other members that FirstNet has worked hard to improve its 
outreach efforts to all stakeholders, including States, and--as 
well as NIST, I understand you have had an official 
consultation with the State of Colorado. Can you tell me what 
is next for FirstNet in Colorado?
    Mr. Kennedy. Right now in Colorado we are asking them to 
start performing data collection, and I know that they are 
doing that. Brian Shepherd, who is the single point of contact 
on the Colorado team, has been sending out communication to the 
public safety community in Colorado, and currently their data 
collection is due September 30, and so they are working to 
gather that data on different public safety users, where are 
they located throughout the State, what kinds of 911 calls do 
they have, where do they need to respond to? And so that is the 
current activity that they are working on.
    Once that data is received, we plan to go back out and meet 
with States to validate that data and discuss what that data is 
telling us to become part of the State plan. And so that is 
what is going to----
    Ms. DeGette. So that will be sometime in the fall, you 
think, maybe? Didn't you say September----
    Mr. Kennedy. In the fall would probably be the follow-up to 
that, after September----
    Ms. DeGette. Yes.
    Mr. Kennedy [continuing]. 30.
    Ms. DeGette. Right. OK. And, lastly, Adams County, 
Colorado, has one of the five early builder public safety 
projects. What lessons do you think you could learn from that 
project in Adams County?
    Mr. Kennedy. Well, the good news is we have already been 
learning lessons from that project, and we look forward to the 
ongoing lessons now that the network is operations. They are 
one of two networks that are already operational.
    Ms. DeGette. Right.
    Mr. Kennedy. There are users who are on the network today, 
and they are looking to add a lot more users to the network. As 
those users come on board, we are going to be looking at 
network management of that particular network, how those users 
interact, and really look for key use cases for the benefits of 
broadband for public safety, and how we can leverage that 
across the country with a nationwide public safety network.
    Ms. DeGette. Thanks. Thank you very much. I yield back, Mr. 
Chairman. Thank you.
    Mr. Walden. The gentlelady yields back, and the Chair now 
recognizes for 5 minutes the gentlelady from North Carolina.
    Mrs. Ellmers. Thank you, Mr. Chairman, and thank you to our 
panel. Mr. Kennedy, I have a couple question--or, actually, I 
have one question. Mr. Long asked my other question. My 
colleague from Missouri was hitting on some of the rural 
issues, and I would like to follow up on a couple of those as 
well. Since FirstNet is proposing a nationwide and State and 
regional approach as potential paths for network acquisition, I 
am concerned with how this affects the rural carriers in 
limiting their abilities to grow as well. They have smaller 
service territories, and I am afraid that they are going to get 
cut out of the process.
    In addition, there is no clear incentive for large carriers 
to partner with the small providers to serve the rural 
communities. Large carriers lack presence in the--and 
experience in these rural areas, and the smaller carriers are 
there. How can--how is this process going to move forward, and, 
you know, how is FirstNet going to ensure that the effective 
and efficient creation of the network in rural areas is 
provided?
    Mr. Kennedy. We have been really trying to outreach to the 
rural carriers themselves. We have been working with the 
different associations, whether it is the rural broadband 
association, whether it s NRTC, many of the other different 
groups that support rural telecommunications across the 
country. We have been engaging them early on. We have been 
encouraging them to participate in our draft RFP that is out 
right now, as well as our public notices, so that they can 
share with FirstNet what their needs and desires are.
    Part of releasing a draft RFP, which is not required----
    Mrs. Ellmers. Um-hum.
    Mr. Kennedy [continuing]. Was to get that kind of feedback, 
both from States, but also from industry, and industry includes 
the rural telecommunications----
    Mrs. Ellmers. Um-hum.
    Mr. Kennedy [continuing]. Providers.
    Mrs. Ellmers. Um-hum.
    Mr. Kennedy. And we want them to come forward with 
solutions that will help make it cost-effective to build out 
further into rural areas that will make the operation to 
sustainability of FirstNet a success, because that is a 
requirement of the act, and to make sure that, as we look at 
things like rural buildout milestones. That is one of the 
things that we are looking for comments on, and we expect to 
receive comments on that. We think it is really important. We 
have asked for a definition of rural, set of----
    Mrs. Ellmers. Um-hum.
    Mr. Kennedy [continuing]. Comments in a public notice. Lots 
of communication from the rural community on that as well. So I 
think that we have heavily engaged both public safety entities 
that are in rural----
    Mrs. Ellmers. Um-hum.
    Mr. Kennedy [continuing]. Areas, as well as the rural 
telecommunication entities, to be a part of making this network 
a success. We think that, whether it is teaming, whether it is 
bringing folks together, whether it is coming up with unique 
and innovative business models that will support that, that we 
have looked at different ways that we can, and are----
    Mrs. Ellmers. Um-hum.
    Mr. Kennedy [continuing]. Continuing to get input on that. 
We actually have, as part of our RFP, have laid out ways that 
people can put themselves forward to team with others so that 
different parts can get together and make sure that they can be 
a viable entity to bid on different parts of the network, and 
be a part of the solution.
    Mrs. Ellmers. Great. Thank you, Mr. Kennedy. I yield back 
the remainder of my time, or if anybody wants it, you know, I 
have got about 2 minutes left.
    Mr. Walden. The gentlelady yields back. The Chair now 
recognizes the gentleman from New Mexico for 5 minutes.
    Mr. Lujan. Mr. Chairman, thank you so very much, and to Mr. 
Davis and Mr. Kennedy, thank you both for being here.
    Mr. Kennedy, as you know, before the establishment of 
FirstNet, my home State of New Mexico was the recipient of a 
BTOP grant to support the development of a public safety 
wireless system, and it is my understanding the FirstNet and 
New Mexico have reached a spectrum licensing agreement in this 
space. Can you give us an idea if this is indeed going to be 
completed by September 30?
    Mr. Kennedy. To my knowledge right now, from CIO Darryl 
Ackley, who is leading the New Mexico team, and his staff, 
Jackie Miller and others, who are working on that BTOP project, 
they are on track to meeting their September 30 deadline. I 
know there is a lot of work to be done, and they are working 
hard to make that happen.
    We know that they have been collaborating to get those 
sites on board, and they have also had a significant part of 
that project that was already deployed for microwave backhaul, 
and other elements that are the backbone of that system. So we 
are really looking forward to additional lessons learned coming 
out of the State of New Mexico. You have some unique issues 
with the border that we are also learning to get some key 
learnings out of, and so really excited, and looking forward to 
that project coming online.
    Mr. Lujan. Well, since you went there, Mr. Kennedy, I will 
jump right to that question that I had for you is--New Mexico 
is one of the many States that has a complexity of 
jurisdictions with local, State, Federal Government, as you 
named, and--namely being a border State, with Border and 
Customs as well. Has the dynamic presented any unique 
challenges that you have seen, or that you anticipated?
    Mr. Kennedy. I think there are two things. One, certainly 
challenges related to spectrum on the border. Mexico is looking 
at different ways to deploy broadband for their Government 
needs, including public safety, than the United States, as far 
as their band plan. There have been some very positive 
announcements on the northern border that Canada is actually 
matched up with our same exact spectrum that we are utilizing 
for the FirstNet network for their public safety first 
responders, so we are in much better shape there, as far as 
dealing with those issues. So that is an issue that is ongoing 
when you get on the border.
    I will say that there has been collaboration and 
cooperation on sites near the border with the Federal 
Government, and Federal law enforcement agencies that work on 
the border with the State of New Mexico. And I think, working 
through some of that, that key early engagement and discussions 
has been very positive both for those Federal law enforcement 
agencies, and for the State of New Mexico, and the lessons 
learned from that engagement hopefully can be applied to other 
parts of the border in New Mexico, as well as other parts of 
the southern border in the country. So that kind of 
relationship building, and discussions, and working through the 
details to get sites online I think will be very beneficial to 
this project.
    Mr. Lujan. And you have heard a lot of questions from those 
of us that represent rural States as well. What lessons learned 
in a State with geography like we have in New Mexico, where it 
is large and land based, as well--we have amazing mountains ski 
areas as well, so sometimes that gets in the way of 
transmission of some of the communications services, where you 
can drop service here and there, because it is so--such a big 
State. So what have we learned that we will be able to deploy 
in other States?
    Mr. Kennedy. Sure. I mean, as somebody who has been a State 
trooper in Utah, and understands some of the rural geography 
that you have in New Mexico, and has traveled to New Mexico, I 
think it is really important that we understand that there are 
many areas that are very difficult to communicate with today, 
and the needs are critical for public safety to have additional 
communication avenues, both in land mobile radio, and in 
cellular and LTE communications.
    I think that the kinds of things we are looking at in 
different communities in New Mexico today with the initial 
buildout will be helpful, but because your geography and 
terrain is so varied, I think that, you know, all the different 
things that we need to bring forward for options and solutions 
to serve very rural areas are going to be critical for New 
Mexico, and all the rural States.
    And I think as we move forward, finding unique solutions 
that can leverage very long ways of dealing in rural areas, we 
are looking at boomer sites as one of the unique elements that 
we have that can cover large areas with a stronger cell site 
that can do that. We are looking at high powered mobile 
devices. We are looking at satellite backhaul in some areas, 
and deployable units. So many different ways to try to serve 
rural communities, all of which I think will be important for 
New Mexico, and many States that have the same kind of terrain.
    Mr. Lujan. And in your testimony, Mr. Kennedy, you also 
outlined the establishment of a tribal working group, and 
hiring a tribal liaison as well. Can you provide more detail on 
FirstNet's efforts to ensure robust tribal consultation? And, 
in addition to that, I understand that you recently had a 
session in Santa Fe, New Mexico. If you could let us know what 
the next steps are?
    Mr. Kennedy. Sure. I think the establishment of that tribal 
working group has been very successful. Early in in FirstNet's 
existence, Chairman Ginn appointed Kevin McGuinness, one of our 
Board members, to be the tribal liaison from the Board. Kevin 
has been actively involved in making sure that tribal 
communities are involved every step of the way with FirstNet. 
We have gone so far as even making sure that we reach out--we 
recently had some public notices, and actually sent notices to 
all of the recognized tribes to make sure that they give us 
input, and we have received input from tribal communities as 
part of that. And so we are looking forward to continuing to 
try to have that involvement.
    When I talked earlier about the 56 State SPOC meeting, 
where we got all the single points of contact together, we 
actually invited the tribal working group to that meeting as 
well, and we had sessions where the tribal working group met 
with States. These breakout sessions had 15 or 20 States in 
there, and talked about issues that affect tribal communities 
related to public safety broadband, and shared their concerns, 
and how to get each side to be more involved with each other. 
So I think we have done a great job of trying to bring them 
together, but there is a lot more to do as we continue to 
develop and deploy the network.
    Mr. Walden. Thank you very much. The gentleman yields back. 
The gentleman from Texas is recognized for 5 minutes.
    Mr. Olson. I thank the chairman and welcome Mr. Kennedy and 
Mr. Davis. One of the early buildout projects is in the eastern 
end of my district, Harris County, Texas, population four 
million people, the third most populous county in America, 
number one in Texas. The last 2 weeks back home have been 
pretty rough. We had a 100-year flood on Memorial Day, with 
homes being lost, businesses being lost. Tragically, a few 
lives were lost, including one woman in my district. And now 
Tropical Storm Bill has rolled ashore, a little bit south of 
Harris County. Made landfall about 150 miles south, meaning the 
worst side of the hurricane, the northeast quadrant, is hitting 
my hometown directly. We are managing, but we can always use 
more weapons in this battle. Bill came ashore between Palacios, 
Texas, a population of 4,661, and Port O'Connor, Texas, booming 
with 1,253. Those two towns can't respond like Harris County, 
Houston can to a crisis, and that is why I am so excited about 
what FirstNet promises. But FirstNet starts with these early 
builder programs, like in Harris County.
    So my question is, Mr. Kennedy, the recently released GAO 
report recommended that FirstNet develop a plan to better 
evaluate their early builder projects and capitalize on the 
experience gleaned from them. What is the status of those 
recommendations, sir?
    Mr. Kennedy. So, first of all, we put together that--an 
evaluation plan to incorporate those lessons learned. We have 
received many lessons learned from each of these projects, 
including Harris County. We most recently even had the Harris 
County team up to our Reston headquarters here in Northern 
Virginia, meeting with both our technical team and our RFP 
team, and sharing those lessons that they have learned so far 
to make sure that they are incorporated both into our 
acquisition, and into our overall plans and procedures, and 
development of the network.
    Mayor Parker, who is the Mayor of Houston, is on our Board. 
Our Board is made up of an amazing group of talented 
individuals both from the wireless and telecommunications 
industry, also from State and local government, and from public 
safety, police, fire, emergency medical services, and sheriff's 
departments. That Board, including Mayor Parker, are giving us 
advice on the deployment of this network, and how critical this 
is. And we know she has been quite busy, as well as all the 
officials in Texas that have been dealing with your recent 
flooding, and the ongoing issues that are affecting you there.
    We think that is an absolutely perfect reason why we need 
to deploy this network and move very quickly, and with focus, 
to have consultation so that we can take in these lessons 
learned to work through the acquisition as the act requires us 
to so that we can deploy this network as quickly as possible 
for public safety.
    Mr. Olson. Have there been real surprises, something that 
came out of nowhere, whoa, what happened here? I mean, any big 
surprises, or are things marching along? Challenges, gotten 
through them, over them? Anything we should be concerned about? 
Some challenges that came out of nowhere, like--I mean, real 
world example, right now back home, we have real big problems. 
FirstNet could be a big part to solving those problems, and 
so--any idea, if we had some big problems, that--might want to 
help out us here in Congress, or are you guys doing all right 
right now?
    Mr. Kennedy. As far as big problems, I don't think there 
has necessarily been unforeseen major issues, but there have 
been things that we were worried about that have come true. So, 
as a good example, the intricacies in working through 
memorandums of agreement, and understanding to get sites, and 
access to sites that are Government sites to help build the 
network, very time consuming, can be political at times, and 
take a lot of time and effort to put some of those in place. 
And so that is just one example of more than 60 lessons learned 
that we have from these early builder projects so far. We 
continue to incorporate those in our development. I think the 
time that it takes to consult and work through acquisition 
takes time, but we are working through that as quickly as we 
can.
    Mr. Olson. As you build FirstNet through early builders, 
are there any insights to use actual real world situations, 
like what we had in Harris County, Texas the past month as a 
real world example of how this thing can save some lives, get 
this thing up and running? Any effort to try to include real 
world examples in your--going forward with the early builder's 
program, and then FirstNet?
    Mr. Kennedy. There are. We have asked for actual use cases 
and lessons learned that are real world use cases that are 
coming out of these projects. Many of them are not live and on 
the air yet today. Harris County and AdCom are two that are, 
but they have a small number of users, in some cases, that are 
on the network today. And as they continue to add users, I 
suspect we will have more lifesaving examples that we can bring 
forward.
    These projects were funded through the Broadband Technology 
Opportunities Program pre-FirstNet, but because they are 
leveraging the FirstNet spectrum, it is something that we are 
going to be able to get those kind of use cases, and be able to 
share them with public safety across the country.
    Mr. Olson. And that is important, because most of these 
homes that were lost and lives lost were lost in small towns. 
Even--I mean, suburban towns, but small police force, not 
capable like the big Houston police force, or my police force 
in Sugarland, Texas, where I live. And so please, please, 
please, get going, get going, get going, we need this. I yield 
back.
    Mr. Walden. The gentleman yields back. The Chair now 
recognizes the gentleman from New York for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. In a--excuse me. In a 
prior life I was the County Executive of Erie County, the 
largest upstate county in New York, 44 cities, towns, and 
villages, and 100 separate volunteer fire companies. I went 
through, 7, 8 years ago, the whole issue of low band, 400 
megahertz, 800 megahertz. I was the one that killed the 800 
megahertz plan in New York State when they came to our county, 
where it had to work, as the largest upstate county. In my 
talking to the volunteer fire folks, first of all, we knew it 
probably wouldn't work, and secondly, we had no money to 
implement it anyway. So I pulled the county out, it cratered 
the whole thing across New York State.
    So talk to me as though I am this local volunteer fire guy. 
I just went from low band to 400 megahertz, and it works. It 
works really, really well. I knew 800 megahertz was a disaster. 
Now, tell me what my life is going to look like 5 years from 
now. Do I have to throw all my radios away? Am I going to go to 
700 megahertz? Am I going to go to a 4G LTE? Who is going to 
buy me my equipment?
    Our emergency services, central police, you know, I was 
county exec when Flight 3407 went down. I have had floods, I 
had blizzards. It was critical that we all talked to each 
other. Rural areas, some of our areas, believe it or not, do 
not today have cell coverage. So tell me what my life is going 
to look like. Make it really simple. I am a volunteer fire 
chief. What is my life going to look like 5 years from now? 
Tell me what it is going to be.
    Mr. Kennedy. When we have been out talking to a lot of 
volunteer firefighters and EMS personnel, most of them carry a 
personal smartphone today, or cell phone today, if they have 
coverage. To your point, there are still some areas without 
coverage, but let us assume they are in an area that has 
coverage.
    Mr. Collins. No, I don't know, I--mine in particular 
doesn't.
    Mr. Kennedy. OK. So, as part of the----
    Mr. Collins. That is my excuse when someone reaches me. I 
tell them I am out in Wyoming County, and--sorry, I just lost 
coverage. And they go, I understand.
    Mr. Kennedy. And the really----
    Mr. Collins. Talk to me as--both ways. Sorry.
    Mr. Kennedy. If you are in a rural county, we want you to 
participate in the New York State consultation process. We want 
you to be a part of that consultation process, get your needs 
on the table for the New York State plan. As we talked about a 
little bit earlier in the hearing today, our goal is to work 
with New York State to bring forward a plan for New York State 
that has coverage objectives, that has data coming back from 
our request for proposal process on cost, and deployment, and 
coverage, and those kind of key elements that will come to the 
table.
    And every State has a different set of issues. We heard 
from New Mexico and border issues. You have border issues in 
New York State as well, but different issues on the northern 
border and the southern border. So we want all those to be 
captured as part of that plan. And then coming forward to them 
is they will have the opportunity to buy service, if it meets 
their needs. So, for the average volunteer fire chief in your 
communities, if we provide the coverage at the cost that they 
are willing to pay for, they can do that. And if we don't----
    Mr. Collins. Yes, but I think----
    Mr. Kennedy [continuing]. Then we have----
    Mr. Collins. Here is----
    Mr. Kennedy [continuing]. Not met their needs.
    Mr. Collins. You know, excuse me, here is the big issue. 
There are separate budgets, in some cases no budgets. As I 
said, we have 100 separate volunteer fire companies. We have 44 
separate cities, towns, and villages. This is one county. You 
know, this all sounds good, but, you know, the tail wags the 
dog. I have got this small community, who is going to buy me my 
new stuff? I have no budget for anything, and yet, I can tell 
you, as County Executive, I needed every one of them to be 
listening to the same channel. I needed every one of them to be 
able to respond, which is why we went 400 megahertz across the 
board, no ifs, ands, or buts. The county paid for the 
equipment. We put every--took them off of low band, killed the 
800. It works perfectly.
    So now it is like, are we turning this all upside down? And 
if I have got to start over, one thing I can assure you, New 
York State doesn't exactly talk to the localities. They may 
talk to New York City. They don't talk to the other localities. 
That is what happened on the 800 megahertz, which was a 
debacle. I just--I mean, should I be worried? If I am a County 
Executive, if I am Commissioner, Central Police Services, if I 
am the Commissioner of Emergency Services, I just kind of see, 
in a perfect world, this is great, but, boy, we don't live in a 
perfect world.
    Mr. Kennedy. I think you should look at it as an 
opportunity that FirstNet will have to provide the kinds of 
services at a cost that can be afforded in those rural 
counties, and that we can expand coverage that will give them 
coverage that they don't have today, and try to meet those 
needs that they would want to partake in the service. We will 
be judged on whether or not we provide that kind of service and 
meet their needs.
    One of the things I think that is very important, and you 
mentioned this, is we will be building an operable system that 
will be interoperable between all those different agencies from 
the very beginning. Doesn't matter at what level they are, 
doesn't matter if it is police, fire, emergency medical 
services, emergency management, transportation, and that will 
be--the opportunity will be to partake in a system that has 
those abilities.
    Mr. Collins. I have got 4 seconds, but what do you 
envision? I--now, I am not talking about just the beginning. 
Are we going to be there in 5 years, is it 10 years, is it 20 
years? What----
    Mr. Kennedy. I think right now we are planning a 5-year 
deployment that will start when the RFP is awarded in early----
    Mr. Collins. Well, deployment is different than--it is 
working--it is just like 400 megahertz. Don't even think about 
it, take out my radio, everyone is listening.
    Mr. Kennedy. You have two different types of systems, land 
mobile radio and LTE. They are not exactly the same, and so it 
would not necessarily a replace. It is maintain the existing 
radio networks that you have now, and leverage broadband as it 
comes forward. As public safety builds trust in that network, 
they will leverage and----
    Mr. Collins. That is----
    Mr. Kennedy [continuing]. Utilize----
    Mr. Collins [continuing]. Part of the key, so--my time has 
expired. Thank you, Mr. Chairman.
    Mr. Walden. Thank you very much. The gentleman's time has 
expired. The Chair now recognizes for 5 minutes the gentleman 
from Illinois.
    Mr. Shimkus. Thank you, and thanks for staying. Usually I 
get done earlier, but it is kind of good that I was kind of 
last, because--going to follow up on a little bit of what my 
colleague from New York mentioned, and some other concerns. 
Thanks for being here. Testimony has been great. Mr. Davis, 
thank you, because you give me a little more comfort, having 
someone more local to the State. Because, you know, the basic 
debate the last couple years was to make sure our first line 
responders had a dedicated system by which we could 
communicate, and then bring on hopefully new technologies and 
devices, with how the world changes so quick.
    Mr. Kennedy, you have been very articulate, and I think 
that has been helpful, but I get--always get concerned when we 
have--we use the terms Government business model, independent 
corporation. I am not sure I have seen the Federal Government 
be able to operate that without challenges. So, I don't want to 
be a fly in the ointment, but the--it really follows up on some 
of Mr. Collins' comments too, because it is not just--he is 
trying to get a picture of where we are going to be, but he 
also said, you know, for the local devices, we have got the--
obviously the radio communications, but, of course, we are 
talking about broadband, and the issue of how do you get--
eventually get to hardened commercial devices, which I don't 
know we talked much about. He did mention who is going to pay 
for this?
    And so when we have a network with seven billion in capital 
to deploy, and be able to match the coverage, capacity, apps 
and functionality of the commercial network--commercial 
networks spend about $20 billion or more a year in upgrades. 
How are we going to do this? If we--if you only have seven, and 
the commercial side spends 20 yearly to keep up to date, aren't 
you a little concerned?
    Mr. Kennedy. This is a complex funding mechanism to make 
this work, but I do believe Congress has come up with a very 
unique model that is doable. We have three major funding 
sources, the $7 billion in construction funding that you 
discussed, leveraging the excess capacity on the 700 megahertz 
spectrum that is part of the network, which is absolutely 
critical. One of the elements in the act was called covered 
leasing agreements, which allows us to lease that excess 
capacity to be able to leverage that funding both in deployment 
and maintenance and operations of the network.
    Mr. Shimkus. And that will be leased to other users?
    Mr. Kennedy. As part of the RFP process, that is allowed to 
be leased to commercial users, who can go ahead and then resale 
that network to consumers, which we are not allowed to do as 
part of the network. That resale, or that covered leasing 
agreement, the way it works in there is a much larger portion 
of the funding than the $7 billion portion. Those two elements, 
along with fees, user fees, for the most part, core network 
fees, those are the three elements that will come together to 
make this a successful network.
    Also, we are going to have to provide a network to public 
safety that meets their needs. We are going to have to meet the 
key objectives of public safety for reliability, for 
resilience, and providing devices, both commercial devices and 
hardened devices, that will meet their needs. One of the things 
we have seen in the commercial networks today is that they have 
a larger variety of devices that can met the needs for both 
voice, video, and data, and we believe that that rich 
ecosystem, on a nationwide scale, with millions of users that 
can come forward and create devices that are cost effective, 
will be able to bring down those prices that the Ranking Member 
mentioned earlier to very affordable prices for devices both 
for vehicles and for individuals.
    Mr. Shimkus. Can you give me some comfort that in 10 years 
we don't have a--well, we will have a--maybe a somewhat vibrant 
LTE system, and the rest of the world has moved on?
    Mr. Kennedy. I think very similar to my earlier comments, 
that we are planning on building a recapitalized network that 
can be upgraded and maintained into the future. Part of the 
reason we have been so focused on the 3GPP standards, and 
sticking with international commercial standards for building 
this network is that we will continue to upgrade and maintain 
the network for those new standards as we move to 5G and 6G in 
the future.
    Mr. Shimkus. Well, we want you to be successful. We wish 
you good luck, and we look forward to following this. Mr. 
Chairman--and I yield back.
    Mr. Latta [presiding]. Thank you very much. The gentleman 
yields back, and I believe we have exhausted all of our members 
here to ask you all questions, but I know on--I want to thank 
you for your time today. I want to also, from Chairman Walden 
and also the ranking member, the gentlelady from California, 
for your time, your answers today. It was very, very 
informative. And, judging from the folks that were in the 
audience today, that they had to fight for a seat. But really 
want to thank you for your time and your effort for being here. 
Mr. Davis, thanks very much for coming in from Ohio on pretty 
short notice. Mr. Kennedy, again, thank you for your testimony 
today. And if there is no further business to come before the 
committee, we stand adjourned.
    [Whereupon, at 3:59 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared Statement of Hon. Fred Upton

    Today's hearing will examine the progress FirstNet has made 
in delivering on its mandate to establish a truly nationwide 
public safety broadband network for our Nation's first 
responders, with an eye toward what's next.
    I am pleased that FirstNet appears to have put the 
distractions of early controversies and missteps behind it and 
has started making the decisions necessary to achieve the goal 
of a nationwide network. With the FCC's recent spectrum 
auctions successfully producing the funding for FirstNet, a 
significant component of this effort is in place. The Board's 
plan to release a Request For Proposal in early 2016 
demonstrates that FirstNet is on the cusp of taking a major 
step forward in the realization of the network.
    Today's discussion provides an opportunity for FirstNet to 
highlight the process employed to get this far, and what lies 
ahead. Mr. Davis, Chief Information Officer of the State of 
Ohio with a long history in emergency communications, offers an 
especially important perspective on the process as we work to 
determine what more, if anything, FirstNet can do to ensure 
that State, local, and tribal input is fully reflected in its 
plans.
    Local participation is essential to the successful 
deployment and sustainability of the network. We all share the 
goal of seeing FirstNet implemented and operated in a timely 
and effective way. Today's hearing, another in our ongoing 
oversight of FirstNet, reflects the committee's commitment to 
that success.

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Chairman Walden and Ranking Member Eshoo, for 
holding this hearing today. And thanks to our witnesses for 
being here.
    Many of us have been talking about the importance of public 
safety communications for a while, so we tend to forget that 
FirstNet is barely 3 years old. It was just a few years ago 
when a broad bipartisan coalition came together in this 
committee with a vision for a nationwide wireless broadband 
network for first responders.
    But we lose track of just how young FirstNet is because it 
has already accomplished so much. It started with literally 
nothing but a bold mission-no board, no employees, no money. 
Very few technology startups make it past this stage. That is 
not the case for FirstNet.
    And now, FirstNet's board is comprised of seasoned 
communications veterans and public safety officials. It's a 
group that would make any company proud. And while the ranks of 
its employees are still growing, the staff more closely 
resembles a group from a technology power house rather than one 
from a Government office. This hard-charging staff has been 
crisscrossing the country making sure everyone with an opinion 
has their voice heard.
    Most encouraging, we are actually about to see the first 
deployments. FirstNet's five Early Builder Projects--including 
one in New Jersey--are already providing important lessons. 
They are the proofs of concept necessary to show first 
responders that this will indeed work. I'm disappointed that 
Governor Christie refused to permit JerseyNet to testify today. 
The project is a one of the Governor's few successes and this 
committee would have benefitted from hearing firsthand about 
their deployment.
    Of course, as with any new venture, FirstNet has faced some 
hard times. But it has not shied away from these challenges 
.For example, GAO recently issued a report concluding that 
FirstNet could use more extensive internal controls and clearer 
metrics of success for early deployments. FirstNet's Chair, Sue 
Swenson, agreed and quickly acted to implement these 
recommendations.
    Similarly, the Department of Commerce's Office of Inspector 
found that in its very early days, FirstNet should have been 
more open. But now most observers describe FirstNet as a model 
of transparency.
    I am confident that FirstNet's board will continue in this 
tradition, maintain these improvements and continue its good 
work moving forward. The importance of this task requires no 
less.
    So I look forward to hearing from our witnesses and hearing 
more about the progress they are making.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
